No. 19-

IN THE

buprente Court of tjje Einiteb Otateo
WELLS FARGO & CO.
and WELLS FARGO BANK, N.A.,
Petitioners,
v.
CITY OF MIAMI,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,912 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 25, 2019.

Colin Casey H ,#. n
Wilson-Epes Printing Co., Inc.

